<html>
<title> - ECONOMIC GROWTH AND JOB CREATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                                                   S. Hrg. 102-000 deg.

                   ECONOMIC GROWTH AND JOB CREATION

=======================================================================

                         ROUNDTABLE DISCUSSION

                               before the

      SUBCOMMITTEE ON WORKFORCE, EMPOWERMENT & GOVERNMENT PROGRAMS

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                   NEWNAN, GEORGIA, SEPTEMBER 2, 2003

                               __________

                            Serial No. 108-B

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                                 ______

92-796              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
PATRICK J. TOOMEY, Pennsylvania      FRANK BALLANCE, North Carolina
JIM DeMINT, South Carolina           DONNA CHRISTENSEN, Virgin Islands
SAM GRAVES, Missouri                 DANNY DAVIS, Illinois
EDWARD SCHROCK, Virginia             CHARLES GONZALEZ, Texas
TODD AKIN, Missouri                  GRACE NAPOLITANO, California
SHELLEY MOORE CAPITO, West Virginia  ANIBAL ACEVEDO-VILA, Puerto Rico
BILL SHUSTER, Pennsylvania           ED CASE, Hawaii
MARILYN MUSGRAVE, Colorado           MADELEINE BORDALLO, Guam
TRENT FRANKS, Arizona                DENISE MAJETTE, Georgia
JIM GERLACH, Pennsylvania            JIM MARSHALL, Georgia
JEB BRADLEY, New Hampshire           MICHAEL MICHAUD, Maine
BOB BEAUPREZ, Colorado               LINDA SANCHEZ, California
CHRIS CHOCOLA, Indiana               ENI FALEOMAVAEGA, American Samoa
STEVE KING, Iowa                     BRAD MILLER, North Carolina
THADDEUS McCOTTER, Michigan

         J. Matthew Szymanski, Chief of Staff and Chief Counsel

                     Phil Eskeland, Policy Director

                  Michael Day, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Perdue, The Hon. Sonny, Governor, State of Georgia...............     2
Akin, The Hon. Todd, U.S. Representative, Missouri...............     4
Collins, The Hon. Mac, U.S. Representative, Georgia..............     5

                                 (iii)

 
                    ECONOMIC GROWTH AND JOB CREATION

                              ----------                              


                       TUESDAY, SEPTEMBER 2, 2003

                   House of Representatives
       Subcommittee on Workforce, Empowerment, and 
                                Government Programs
                                Committee on Small Business
                                                         Newnan, GA
    The Subcommittee met, pursuant to call, at 5:19 p.m., in 
the Council Chamber, Newnan City Hall, 25 LaGrange Street, 
Newnan, Georgia, Hon. Phil Gingrey presiding.
    Mr. Gingrey. First of all, let me welcome everyone to this 
Economic Growth and Job Creation Roundtable here in Coweta 
County and the City of Newnan. And we want to thank, at the 
outset, Mayor Keith Brady for being kind enough to host this.
    I have got the distinct pleasure chairing this event to 
introduce to you three of my favorite, favorite people. Great 
Americans and great Georgians and a great Missourian. We are 
honored, certainly very much appreciative that Congressman Todd 
Akin from the Second District of Missouri, my colleague in the 
108th Congress, who is a Subcommittee Chairman of the Small 
Business Committee in the Congress and so fully understands the 
struggle that some of us are going through in our small 
communities as is so typical of several of the counties in this 
11th Congressional District.
    Congressman Akin has just completed right here in this room 
a field hearing, a full Congressional hearing, where we had 
great testimony from elected officials from many of our 
counties in the 11th District--Upson, Meriwether, Coweta--and 
it was a very, very enlightening opportunity and we thank so 
much Congressman Todd Akin from Missouri for being with us 
today.
    Certainly this guy to my left needs absolutely no 
introduction, my former suite mate in the state Senate at a 
time when we were both struggling in the minority. The minority 
party was very grateful to have, of course, now Governor Sonny 
Perdue as part of our leadership. And as we both thought about 
what we might do politically, me running for Congress and Sonny 
Perdue running for Governor, and proud to say today of course 
that we were both successful and I am honored to be sitting 
here next to my friend, the Governor of Georgia, the Honorable 
Sonny Perdue. And Governor Perdue, I thank you so much for 
being with us today.
    Governor Perdue. Thank you.
    Mr. Gingrey. Congressman Mac Collins--as everybody in 
Coweta County and west Georgia knows him--certainly need no 
introduction. Congressman Collins and I share--Mac and I share 
about seven counties in this part of the state, has he has 
represented the Eighth Congressional District for so many 
years. I guess Mac is in his sixth term now, his 11th year in 
the Congress, a member of the powerful and vitally important 
Ways and Means Committee. He has got two things on his mind of 
course, continuing to serve as an excellent member of the House 
of Representatives and I think there is another little race on 
his mind as well, but I am truly honored to have my colleague, 
Mac Collins, join us for this economic roundtable discussion.
    Mr. Collins. Thank you.
    Mr. Gingrey. Senator Dan Lee, who is the Governor's right 
hand, and maybe left hand too, although not on any left-handed 
issues, is my great friend from LaGrange and Troup County, and 
as the Governor's Floor Leader is doing a wonderful job in the 
state Senate.
    So it is certainly a great opportunity for us to come 
together here this afternoon and have this roundtable 
discussion, realizing that these are tough, tough economic 
times. They are tough for Georgia, they are tough for the 11th 
Congressional District, they are tough for the nation. And we 
are suffering. The states are suffering, we are struggling at 
the federal level, as Todd knows so well, having been in the 
Congress longer than I have, to try to pay for a war that is 
ongoing and certainly when the President says major conflict 
ended a couple of months ago, he never said that the battle was 
over. It is ongoing and it is costly, but it is vitally, 
vitally important.
    We are struggling with deficits at the federal level 
because of that, but this too shall pass and it will pass 
because, just as at the state level under the leadership of 
Governor Perdue, we also have a great President in Washington. 
We need to sit with him, we need to support him and he will 
lead us to the promised land, and Sonny Perdue is going to lead 
us to the promised land and we all just have to fight hard and 
understand and understand our needs and work toward common 
goals and solutions.
    So with that, I would like to first of all as our Governor 
to make a few remarks and then Congressman Todd Akin and 
Congressman Mac Collins, if you will. And then we will just 
kind of throw it open to questions.
    With that, Governor Perdue.

  STATEMENT OF THE HONORABLE SONNY PERDUE, GOVERNOR, STATE OF 
                            GEORGIA

    Governor Perdue. Thank you, Phil, and I appreciate your 
willingness to organize this roundtable. I am continually 
amazed that every time we do our Saturdays with Sonny and have 
visits with everyday Georgians what corporate wisdom comes from 
just people out here every day. I know, Congressman Akin, you 
find that same thing in Missouri. These are very, very helpful 
and I want to applaud your organization of setting this up, 
Phil. Thank you very much.
    Congressman, we want to give you a good old Georgia 
welcome. we are delighted that you are here, that you would 
take time to be down with folks that we value here--Congressman 
Mac Collins, who served--I actually sat by Mac when I first 
came to the Senate and he tells people he trained me, so----
    [Laughter.]
    Governor Perdue. [continuing]. I do not know whether that 
is good or bad, but he is taking credit for it anyway. Of 
course, Mac is from small business and knows what it is to 
build a business literally from the ground up and that is what 
people here--we talked about a lot of things, but it really 
comes down to the jobs. I know that is what you all are 
focusing on and I know that is what the President is focusing 
on, is getting this economy kicked back around.
    I was meeting with the Council of Economic Advisors over a 
working lunch. These were economists from the public and 
private sector, and we are talking about public policy that can 
make a difference in people's lives as far as getting people 
back to work, stimulating the economy and getting jobs. I mean 
when you really define quality of life, you can have a good 
educational system, you can have good roads, but if you do not 
have a job, you are hurting. And we have got families in 
Georgia hurting right now. We want to put together the policies 
that make good sense.
    The good thing about it is--and Mac and Phil know this--
that the relationship that we have in the state with our 
Congressional members and with the White House is just a 
pleasure to do business these days. We have got I think a real 
partnership and it is going to make a difference for Georgia, 
as the relationships are strong and deep and trustworthy. And 
that is where you can really get something done.
    I am going to talk in just a second about local leadership 
and this whole effort cannot be accomplished without good 
leadership at the federal level, a state government willing to 
do its part and then good local leadership. We can do 
everything, we put all the good policies in place, but it is 
good local leadership that really makes a difference in 
communities around. So again, you all are blessed in this area, 
but I want to challenge you all to continue to look toward 
building good local leadership, not just in elected office, but 
building community leaders that make a difference in your 
community because that is what really will lead us into the 
future and the future of our children and grandchildren will 
depend on the foundation that you all are laying just now.
    So in conjunction with our great Congressional delegation 
and their leadership and the President in the White House 
saying he wants to do his part in having the policies out here 
that can get this economy back going and get people back 
working, get people back spending and we are hoping that will 
kind of fall down to some state revenue after all that as well. 
We could use some.
    We welcome you. Thank you for coming, taking time out, I 
know it is busy and you all are just getting back to work and 
got a busy fall ahead of you but it is very important for you 
to be here in Georgia, and Phil, thank you for inviting the 
Chairman here, and Mac, thanks for representing this part of 
Georgia so well.
    Mr. Gingrey. Thank you, Governor, so much. Congressman 
Akin, Mr. Chairman.

   STATEMENT OF THE HONORABLE TODD AKIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Akin. Well, I thank you. I really feel, Governor, 
completely welcome and if there were not so many good 
Congressmen here, I might move down. But you know, I am just so 
thankful for the leadership that you have sent to Washington, 
D.C., because, you know, we have to work with all these 
different people and I came in here, I chose Georgia over a lot 
of other places just because of your leadership and the 
invitation to come here and to have some of these hearings 
outside of the Beltway and see what is happening at the 
important place, where all of us live our lives.
    You know, your comments even in the last minute or two 
reflect so much my own personal belief about why I have an 
optimistic attitude about things, because, you know, we talk 
about infrastructure and we talk about making sure businesses 
can be competitive, and all those kinds of things. But the real 
bottom line of the whole picture is just the people that are 
involved and people that have a sense of vision, have the guts 
to take some idea and go out and put that idea in place, that 
freedom that has always made America competitive and made it 
successful. And I can sense that with the kinds of people--you 
know, the people you elect to office is a big reflection of the 
sort of community that you are. Sometimes that is a scary thing 
when I run into some people elected to office----
    [Laughter.]
    Mr. Akin. [continuing]. But in your case, this a good 
thing, and that reflects the fact that, you know, the economy 
kind of goes up and down some, but when you have people that 
are willing to go out there and to dream the dream and put it 
on the line, that is how America has been built, by one dream 
at a time. And I can see you all have the strength to do that, 
and the economy goes up and down, but you can land on your 
feet.
    So I am just thankful for your leadership, Governor, and 
for the fine Congressmen that you have been sending up, it 
makes my job a lot easier. So I wish you all well and look 
forward to the roundtable.
    I will make a comment that because of our plane schedule, I 
do have to leave in about half an hour or so, but it does not 
mean I am quitting early.
    Mr. Gingrey. Congressman Akin, thank you, Mr. Chairman, 
thank you so much. And we are deeply appreciative that you 
picked the 11th Congressional District of west Georgia to take 
your time and be with us and to hear from, as we did earlier in 
the hearing, the formal field hearing, from our mayors and our 
count commission chairs and our city council members and the 
presidents of our respective chambers and economic development 
authorities, it has been a wonderful afternoon.
    My colleague Mac Collins, talking about Sonny, our Governor 
said that in some ways that state Senator--former state Senator 
Mac Collins was his mentor, he has certainly been my mentor in 
the Congress and as I needed some friends, freshmen always do, 
Mac has always been there for me and what a pleasure to share 
with him so many of these districts in west Georgia.
    Mac, thank you for being here.

  STATEMENT OF THE HONORABLE MAC COLLINS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Collins Thank you, Phil and Todd. Welcome to God's 
country.
    [Laughter.]
    Mr. Collins It is a pleasure to have you here.
    The Governor well knows that this is the best place on 
earth to live, is the State of Georgia. Not taking anything 
away from Missouri, I know we have to show you out there, but 
it is a pleasure to have you here.
    The Governor has set a record, you know, he is the first 
Republican Governor since Reconstruction, which goes back 
further than I have lived, and he too, so it is a pleasure to 
have him. He started off--had a rough start, coming into a 
situation where the economy took a real dive and revenues have 
taken a dive with it and he has done his job well, he is 
getting his sea legs under him now, and you ain't seen nothing 
until next year, he will do a super job for the State of 
Georgia.
    You know, I saw the President just a few minutes yesterday 
on C-Span as he was speaking I believe it was in Ohio to the 
engineers' union. And he said it best, he said, you know, the 
economy is about jobs--the economy is about jobs. I do not care 
if it is the newest entrant into the job market or if it is the 
top CEO of the country, it is a job. And that is what it is all 
about, is the cash flow of people, the mother of all cash flows 
and they get their money from their job.
    There are a lot of problems. As the President said 
yesterday, we have addressed a lot of problems with individuals 
as far as tax relief. It is now time to address some problems 
that businesses face. One area that I think is very important 
that we take a look at, it is an area that we have not reduced 
the tax burden on and that is the area of the corporate tax 
rate. Most all industrialized nations have reduced their tax 
liability to business, they are now drawing a lot of our jobs 
because they are drawing our businesses away from here and they 
are locating in other parts of the world. Although you can meet 
that type of competition--either you meet them or beat them at 
their own game, so now we have to take a look at what is 
happening in the area of business tax. We did some of that 
early on with the President's growth package when we reduced 
the capital gains rate, we did some of that with the 
accelerated depreciation on the 50 percent expensing, and we 
are also taking a look at alternative minimum tax as far as 
corporate. We did do something as far as individuals. The stock 
dividend, the tax of 15 percent rather than the double taxation 
at 35 percent was a good move.
    But it is about jobs. We appreciate people who are willing 
to take a risk. I started out at the age of 18 in a small 
business. I also started out at the age of 18 in debt. I am 58, 
be 59 next month, I am still a small business and I am still in 
debt. But I tell people that come by the office it does not 
matter who they are, if they are working people, I tell them I 
appreciate the fact that they are working. If they are people 
who are taking a risk to provide jobs, I do not care if it is a 
small one or two man operation or two person operation or if it 
is the CEO of Ford Motor Company or Georgia Pacific, whomever 
it may be. They ask how can I help--that is where you can help, 
keep those jobs going. We need those jobs, we need those jobs 
in America. We understand that your business, small business as 
well as large business, has challenges. We meet those 
challenges ourselves.
    We appreciate you being here and look forward to hearing 
from you and I am going to hush. Thank you.
    Mr. Gingrey. Congressman Collins, thank you very much.
    And with that, I would like to open the roundtable up to 
just, as it says, a roundtable. We are wanting to hear from 
you, wanting to hear from the community, very thankful that so 
many of you are here for this opportunity this afternoon the 
direct some questions to Governor Perdue, to myself as a 
Congressman representing this district as well as Congressman 
Mac Collins and of course, Committee Chairman of a vitally 
important Subcommittee of the Small Business Committee, 
Representative Todd Akin. So why don't we just open it up and 
we are ready for the first question.
    Mr. Harper. Congressman Gingrey, let me comment on 
something that you are extremely well aware of and all of you 
are, and that is the burden of the increased health care cost 
for the small business. And that is something that is not new 
and that is something we are not going to solve here, but we 
cannot have a roundtable and not say how important that is.
    I am either owner or part owner of three different 
businesses and there has to be some relief or it is going to 
hurt not only job creation but job retention in the State of 
Georgia, or any state. And it is something that needs a lot of 
attention and a lot of work.
    The other thing, talking about small businesses, is I 
believe the Governor is working on an entrepreneur division or 
department and I think that that is a great move and I think I 
have heard the Governor say this, that we have to create our 
jobs rather than import them. Not that we do not want to import 
some, but we cannot depend totally on that. And in order to do 
that, as a small business person, one of things that I would 
add is that we need to find a way to simplify business. It 
sometimes just gets almost too difficult to do business because 
of laws and things that when they are made you may not 
understand how--I know you understand, but the details of that.
    Let me give you one example and then I will let somebody 
else speak. We are trying to start some new banks in this area 
here and we had everything ironed out and we had some federal 
legislation, they call it Historical Preservation 106. Good 
legislation, but it almost stopped about 35 or 38 jobs and over 
a million dollar building in small communities. Anything that 
is 50 years or older that has got federal ties to that, like a 
bank with FDIC, that means that you have got to get their 
approval before you can do anything as far as demolition is 
concerned. We fought that battle for about two or three weeks 
and I finally just asked the guy in charge of that--they came 
down and met with us--are you willing to take the 
responsibility for stopping these jobs and for cutting this 
out, the communities are in favor of that or our community was 
in favor of it.
    So I just say that as an example. We did work through that 
and we resolved that problem. It cost us, a small business, a 
good bit of money to redo site plans and get those folks happy, 
but we were able to sit down and come to an agreement. But I 
think that is one example, anything from 50 years to 100 years.
    I just say that in doing everything, we have got to find a 
way to simplify doing business. And one other thing from the 
entrepreneurial standpoint, you know, we have a great program 
in the SBA, but there is a lot of red tape with the SBA. I 
think not necessarily any new money, Governor, because I know 
money is kind of tight these days, but you know, we have 
technical colleges all over this state that are great technical 
colleges and I think if that could be tied in with the 
entrepreneur and the small business and the training and 
business plans and all of that tied together as a part of that 
program. I know they have to go get those, but I think we have 
got in place people locally who understand what that system is 
all about.
    So I would just say that if I could sum all of this up, 
health care, we have got to have some help; we do have to build 
our jobs and we have to make it simple enough so a person is 
willing to do that and can afford to do it. And in everything 
that we do, let us not make it any more complicated.
    Mr. Gingrey. Terry, thank you. And what I will ask the 
roundtable discussants, if they will, to identify themselves 
and I will do that for Terry. Terry is my good friend, Terry 
Harper from Heard County, Franklin, Georgia and a leader in 
that community, and Terry, I really appreciate that question.
    I am going to start the answers, and of course, it is a 
multi-tiered question and Mac and Todd, I think are better 
equipped to handle some of those questions, and also Governor 
Perdue in regard to the health care, but let me just start that 
out by saying that as we go back to Congress tomorrow, we have 
some heavy lifting to do in regard to several health care 
issues. As you know, the House passed H.R. 5, the tort reform 
legislation two months ago, three months ago, and it is sitting 
in the Senate being studied intently and we are struggling 
because of the need for a super majority rather than a simple 
majority. This needs to be passed and it is all about leveling 
the playing field, it is not about denigrating the legal 
profession. There are people who are involved in personal 
injury practice and they do a good job and they are very much 
needed. But we need to level that playing field, because if we 
do not do it, we are not going to have any physicians at the 
emergency room when our young children or grandchildren are 
injured, we are not going to have any OB/GYN doctors willing to 
deliver a high risk pregnancy for fear of a bad outcome.
    And by the way, we estimate that this probably is costing 
the federal government each year enough to fully pay for the 
prescription drug benefit, the version that we passed in the 
House, and I say that because the federal government spends 
maybe two-thirds of every health care dollar on Medicare, 
Medicaid, veterans' benefits, military retirees and active duty 
personnel. And there is a whole lot of defensive medicine going 
on there as well, multiple redundant tests that are ordered 
because of that. We need to deal with that and we need to 
modernize Medicare. We do not need just simply a prescription 
drug benefit, a stand-alone would just further accelerate the 
day when Medicare would be in default. So we need to also 
modernize the Medicare and bring it from 1965 to the 21st 
century.
    I would like to ask the Governor to maybe comment a little 
bit in regard to the Medicaid program, which you know is under 
tremendous pressure in the various states and certainly here in 
Georgia and I know the Governor is working very diligently to 
try to deal with that concern.
    Governor Perdue.
    Governor Perdue. Well, certainly that is a program that is 
under a lot of physical pressure, but I am a small businessman 
too and I just got my renewal rate, so I know exactly what you 
are talking about. They were in the high double digits and so I 
know exactly what you are referring to that way.
    The tort issue is one of those issues that I think can 
help, but it is a complex problem and there has got to be a lot 
of solutions there--better technology use in medicine and 
helping to solve that.
    But you are exactly right, if we do not start making 
progress on that issue and we continue to spend a greater and 
greater percentage of our GDP on health care, this country will 
not be as productive, it will not be as successful in the 
future as it has been. That is just a fact of the matter. These 
require, you know, sort of getting some of these partisan 
politics out and this jockeying around, and creating real 
solutions for the average person out here who is trying to grow 
jobs in that way. And it takes a multi-faceted approach to 
solutions on that.
    Certainly regulations--this is one thing I have told our 
people, on the over-regulation of small business, let us get 
some clearinghouses here and find some people that can say yes 
rather than say no. That is a big need in government sometimes, 
is to find people who want to find ways to say yes rather than 
no and to help people drive the economy. I mean after all, it 
is your capital, your risk and your sweat equity that is 
building jobs there. So that is what we want to do, and that 
includes a variety of issues with the training aspect that you 
mentioned.
    Mr. Gingrey. Congressman Akin.
    Mr. Akin. We have heard enough from Congressman Akin.
    Mr. Gingrey. Mac?
    Mr. Collins There is only one other thing that I can think 
of offhand that we are doing that could help small business and 
that is associated health plans where a small business can join 
with other small businesses through an association and buy 
collectively a plan at hopefully a much less cost. We passed 
that in the House, it just needs to pass over in the other 
body.
    Mr. Harper. I think that is a great benefit because that 
can move them up into a larger group.
    Mr. Collins That is right.
    Mr. Akin. You are going to hear a little bit of a common 
mantra, there are a bunch of these things that you have brought 
up and other people are going to bring some things up. We pass 
legislation in the House and it goes to the Senate and it is 
just kind of sitting there. So some of us would love to kind of 
jump start the Senate a little bit and get some of these things 
moving. But we have dealt with medical practice, we have dealt 
with tort reform, we have dealt with the associated health 
plans and a number of different things that will have bearing 
on that. It is just a matter of trying to get them moving.
    Mr. Gingrey. You know, Terry, also in regard--you brought 
up the specific issue there in Heard County, the hurdles that 
are created. You have an opportunity, you have local effort and 
entrepreneurship trying to do something for the community and 
you fun into these hurdles.
    I clipped an article out of the newspaper, I am not sure 
whether it was AJC or my local newspaper in Marietta or maybe 
it was one in the district, but it was talking about the number 
of rules and regulations that the various and sundry 
departments of the federal government put upon us, the small 
business men and women in these communities that we represent. 
And probably for every law that is passed by the Congress, 
there are 50 rules and regulations which are done just simply 
by departmental fiat, if you will, that just over-burden and 
make it very difficult to succeed in our small businesses. So 
it is a good point you bring up, we need to look very closely 
at that.
    Ms. Blencoe. I would like to make a comment, I am Corinne 
Blencoe, I am with the Georgia Department of Community Affairs.
    This gets back to the question about the hurdles and I just 
want to point out that the Historic Preservation is not always 
a hurdle for small businesses. I own a historic building myself 
and I know it can be tricky sometimes negotiating all the 
paperwork and everything, but we use historic preservation as a 
basis for a lot of good programs that benefit small businesses. 
Through our department, we have better hometown and main street 
programs, which are basically grassroots programs to help 
downtowns improve themselves, make a better environment for 
small businesses in the downtown area. And that is based on 
preservation. If you have got downtown buildings, we need to 
use them first. Maybe a good example of a successful main 
street community, Jennifer Elliott here from Manchester, is a 
good example of a successful main street community. Jennifer 
Elliott here with Manchester is one of our better hometowns.
    Another thing I wanted to point out is that there is 
significant financial and state tax incentive programs tied to 
historic preservation, so that National Historic Preservation 
Act of 1966 does create hurdles, but it also does give--to the 
right project, it does give some financial incentives.
    It is a hurdle I know and it is paperwork, but sometimes it 
actually does have benefits for our small communities.
    Mr. Harper. We had all of those discussions and my concern 
was that they had no economic tie to the effect.
    Ms. Blencoe. Right, right.
    Mr. Harper. That is what I was trying to get at. Historic 
preservation is good, I have served on the Historic 
Preservation Society, so I am not against that. I am just 
saying there has got to be some changes there. When laws are 
made that can stop that kind of growth. It was very difficult 
to get to the negotiating table, it was like that is the way it 
is, but we finally did.
    Ms. Blencoe. And that law was passed 37 years ago.
    Mr. Gingrey. Corinne, thank you for bringing that up, 
because as you point out, things like the main street program 
in Georgia has been a tremendous success and all you have to do 
is look at some of the brochures and some of the communities 
like Newnan and other towns where that has been a great 
success.
    But I think, you know, maybe what Terry is referring to is 
needing to strike a balance. And quite honestly, whether it is 
a member of the Georgia General Assembly in state government or 
whether it is a member of Congress or city council or county 
commissioners, you are constantly trying to strike that balance 
and to make sure that there is--it is a trite expression, but a 
level playing field for everybody involved, and that as you 
hear from a constituency or an advocacy group, the Governor has 
to deal with that every day to try to make these tough 
decisions to make sure that nobody gets an unfair advantage to 
the detriment of the majority. And it is a very tricky thing to 
deal with, both at the federal, state and local levels.
    Mr. O'Neill. Congressman, I am Ken O'Neill with the Carroll 
County Chamber of Commerce and I agree with Terry on a lot of 
what has been said about issues facing small business. There is 
no question in our small community that availability of health 
care for small businesses is probably number one. If I go into 
any group meeting of small businesses, local coffee shops in 
the morning or whatever, that topic will surface more than 
anything else.
    Probably there is more fear in that one issue because if I 
cannot afford it, I do not have it, what do I do. So I am 
living day to day and hopefully nothing goes wrong.
    But worker quality is still an issue. I think a lot of 
businesses, especially in the medium size range, are concerned 
about the quality of the workforce of the future. That is not 
to say that everything is not getting better in that area, but 
some folks have bigger concerns than others about where the 
leaders of their businesses in the future are going to come 
from.
    And then finally, I would just say that entrepreneurship, I 
consider that to be maybe a bigger part of Georgia's future 
than some people. I think the rich days of manufacturing are 
not going to be as prevalent as they once were. I do think that 
entrepreneurship and encouraging startup businesses are going 
to be a vital program to each community across the state and 
that our programs need to be geared both on a state, federal 
and local level to assisting that business get going, take 
roots and be ore successful. As you know, three out of four 
businesses fail. So that ratio needs to change as we go into 
the decades in the future.
    Mr. Gingrey. Ken, thank you for those comments. Governor, 
you might want to address some of that. I know you just got 
back from a trade mission and working hard to make sure that we 
have an educated workforce, both at the technical level at 
adult technical colleges in the state and of course, Carroll 
County has West Georgia, one of our best, West Georgia 
Technical College, we are trying to do just exactly what you 
are talking about, Ken.
    Governor Perdue. I think the dropout rate is of concern 
obviously to all of us and that is one area we have got to 
focus on. My vision is to allow DTAE to kind of come down into 
our K through 12 and engage those kids who may have lost 
interest or lost hope in high school and get them some hands on 
experience with a joint degree, where they have got a high 
school degree, if they complete a job skills training as part 
of a technical school, in a joint enrollment situation, coming 
out of that prepared to go into the workforce in a trained 
modern day environment. So that is where we hope to head now.
    Ms. Griffies. I am Linda Griffies, I am with West Georgia 
Technical College in LaGrange, Georgia.
    Our particular college, during the last year, was the 
fastest growing college in the state. We have seen our 
enrollment move from about 1100 or 1200 to 2200 over the last 
year and we are working with workforce development sites, both 
in Meriwether County and in Heard County, and we are working 
with Terry in Heard County for an entrepreneurial development 
center there.
    We are making available a lot of our marketing people and 
instructors in our school to provide assistance to small 
businessmen in their startup operations.
    However, we like everyone else in the state will be facing 
more budget cuts going down the road. It is a reality, it is 
something that we have to accept, but what concerns us is the 
ability to deliver to the small businessman the same quality of 
employees that we would be able to deliver to a large company 
coming in, because like you say, they are probably going to be 
the ones who will fuel our economy in the future.
    That is my biggest concern, is maintaining the quality that 
we deliver to all of our outlying areas. We have dual 
enrollment programs in every high school in our tri-county area 
at the current time, at least one, if not three or more in the 
various high schools. And that is my biggest concern moving 
forward, is our ability to be able to maintain the level of 
service that we deliver with the shrinking resources that are 
available to us.
    Mr. Gingrey. You know, Linda, you mention that and I cannot 
help but sit here and think about what happened recently at 
State University of West Georgia. You are very familiar and I 
know that Ken is as well. They have a program there called the 
Advanced Academy where they bring in high school students who 
literally complete high school their junior and senior years, 
in some instances, on the campus of the State University of 
West. Many of these extremely bright students come from 
impoverished backgrounds and they were only able to enroll in 
that academy with the help of the Pell scholarship program 
through the federal government. And then all of a sudden that 
was taken away from them because they were labeled as joint 
enrollment students, when truly they were not joint enrollment 
as you and Ken and Terry point out in regard to still being 
high school students but taking some courses at an adult or 
technical college. And they lost these Pell grants. So we have 
got to go back to Washington and try to make a little change in 
the law to make sure that this wonderful program is not 
destroyed because of some little quirk in the law.
    I think what you are talking about, and Terry earlier in 
his comments, is trying to--those of us who are in Congress--to 
remove some of these unnecessary barriers to success, if you 
will.
    Ms. Blencoe. Linda mentioned that they are working on 
several workforce development centers around the region. One of 
those is in Meriwether and we were, through the Department of 
Community Affairs, we were able to award the count a $500,000 
community development block grant to help fund the 
construction. We are so pleased to have that. It is a federally 
funded program that is appropriated to each state and our 
department just makes the grants available on a competitive 
basis once a year. But the best thing about it was we were able 
to award that grant knowing that the community had raised 
almost $300,000 in matching funds. So I mean it was a great 
federal appropriation that made the project happen, but it was 
really the local fund raising too that went to make up part of 
it. It is actually going to fly because of the local funding 
that has been pulled together in the past six to eight months.
    Mr. Gingrey. Corinne, when we had the field hearing earlier 
today, we talked a lot about the Tier 1 counties, such as 
Meriwether and Talbot, some of which are in this 11th 
Congressional District, and the great needs that they have and 
what we can do, both at the local, state and federal level, to 
try to reach out with some of that compassion. I made a 
reference, Governor, to no child left behind. I think we just 
need to try to do more to make sure that no community is left 
behind and I know that nobody, no Governor, no elected official 
that I know of has more compassion for rural Georgia than you 
do and you being from Bonaire realize and understand that while 
we agree that Atlanta is the economic engine and that large 
metropolitan area, that we need to do all we can to try to help 
these Tier 1 counties, so many of which I represent.
    Ms. Elliott. I am Jennifer Elliott with the City of 
Manchester in Meriwether County, and we have here too Susannah 
Dobbs who is owner of Dobco in our city, who employs about 40 
employees. And one of the unique things about her company is 
that--well, first of all, it is the kind of business that we 
really want in our city, because it is fairly new and it is 
growing quickly. She makes thermal plastic pavement markers, is 
that correct?
    Ms. Dobbs. Yes, that is correct.
    Ms. Elliott. And one of the unique things about it is she 
would really like to even benefit our city more than just 
through the employees and the local taxes, but her sales tax 
when she makes a delivery, she pays the taxes where she makes 
the delivery. And so our city and our county does not get those 
revenues. I do not know if that is federal law or state law, 
but that was one way--if there is some way we could shift that 
to where the city--that somehow she can make the sale in the 
city or change that law somehow that we can benefit, because 
like I said, we are a small city and a small county and that 
would be another way that we could benefit from this great new 
industry that we have.
    Mr. Gingrey. Jennifer, before we respond to that question, 
Congressman Akin has got a plane and he is going to have to 
dash to Hartsfield--I think it is still Hartsfield 
International Airport, isn't it?
    [Laughter.]
    Mr. Gingrey. But I just want to say before he leaves, again 
how much we appreciate Congressman Akin being with us today.
    Mr. Bezas. Actually we have a few extra minutes that we 
have allocated to the schedule. I apologize, it was my fault, 
and the Congressman does not know.
    Mr. Akin. It has something to do with a police escort.
    Mr. Gingrey. Oh, I see.
    [Laughter.]
    Mr. Gingrey. Thank you very much. Jennifer.
    Ms. Elliott. And a follow up with that as well, I know we 
really want industry in our town and in our county and 
certainly want that little car company to come to our county. 
But we also really want to do everything we can to support the 
small industries because that is our lifeblood. I think the 
days of the large manufacturers are gone. Our largest 
manufacturer used to employ around 1000 and I think they now 
employ around 500. So we are really looking to the Susannah 
Dobbs of the world to come to Meriwether County and Manchester 
and really grow, in a small way, and to try to get more 
incentives for small manufacturers to come to our city, not 
just the larger ones.
    I know when she gets ready to expand, we want to be right 
there to help her. And it is kind of about cutting through the 
red tape. We have a revolving loan that is allocated for 
Manchester, but we have to re-apply and so that kind of makes 
that process a little bit longer. If there is some way--we have 
already--it is a loan that we received six or seven years ago 
that we have paid back for the first industry that we got in. 
And then if we want to be able to loan that back to Susannah, 
we have to go through the whole application process all over 
again, even though that money is allocated for our city. So if 
there is any way we can kind of cut through some red tape there 
as well, so when Susannah comes to me and says I am ready to 
expand, can you help me, we can try to make that process happen 
faster.
    Ms. Blencoe. What Jennifer is referring to is the community 
development block grant program. We can set aside monies for 
economic development. Basically that money, CDBG, is to benefit 
low to moderate income individuals, as you well know, and 
through the economic development set-aside, we do allow CDBG to 
create local revolving loan funds. If it is a loan to a 
manufacturer, they pay it back to the community, but because it 
is federal money, at the state level and the local level, our 
hands are still tied by these federal regulations which make--
even though the money is recaptured locally and is waiting to 
be used only in Manchester, they still have to go through an 
application process.
    Ms. Elliott. And it is also still tied to job creation.
    Ms. Blencoe. Right, still has to be----.
    Ms. Elliott. So even if she says I just need more room, I 
could do my business more efficiently if I had 20,000 feet of 
extra space, we still would have to prove even further job 
creation or really hit home with job retention, but any way you 
could try to make that process a little easier for us.
    Ms. Blencoe. And that is hard regulations.
    Ms. Elliott. Because it is job retention is really what we 
are trying to achieve and job creation because we want our new 
businesses to be our old businesses 10 years from now.
    Mr. Gingrey. Susannah, Jennifer, that is what a roundtable 
is all about, telling us what your unique problems are in your 
county, in this district and what we can do both at the federal 
and state level to give you some relief. I think that tax 
issue, maybe others at this state would understand that a 
little bit better than I do, whether it is Senator Lee or 
Congressman Collins or Governor Perdue, but we want to do 
everything we can to keep those jobs, because we do not need to 
lose any more of what we have got.
    Ms. Dobbs. I just also would like to go on record and say 
that we are a classic company that has taken advantage of as 
many programs as we know exist that are there. We got our 
original financing through SBA, we have tried to take advantage 
of all the job tax credits, we try to use Savannah ports. We 
try to do everything that we possibly can do and those programs 
do help, especially in new business. So any support that you 
continue to give to those programs will certainly help us.
    We still have struggles in our community because we are a 
Tier 1 community. My biggest issue really is finding an 
employable workforce. The educational level is low and we try 
to get involved in the school system to try to help these kids 
understand how important an education is. We also feel like 
there's a big need for the community to be educated, not only 
on how the children need to be educated through the public 
school system but also the importance of industry to their 
community in spreading out that tax base and creating a tax 
base, so that there are monies available for the kind of 
programs that we need and there is a huge issue in our county 
that people just do not understand what industry does to a 
community. So it is a constant thing that we work on to try to 
educate folks in that arena.
    But the job tax credits and like I say all the programs 
that have been out there have certainly been a big help to us. 
So we appreciate it.
    Mr. Gingrey. Thank you, Susannah.
    We have probably got time for one last question. I know the 
Governor has got an awfully tight schedule and Congressman 
Akin, of course, was able to stay a few more minutes, but does 
have a plane to catch. I think there is a preschool program, a 
K-5 program, right here in Newnan, Coweta County, that some of 
us would like to at least have five minutes to stop by and say 
hello and see some of the wonderful things that they are doing, 
and then I head to Columbus, Georgia, believe it or not, part 
of my district, for a little talk down there tonight.
    But we have got just a few more minutes and if there is 
another question, we would be happy to hear from someone else. 
I think this has been very, very informative. I am very 
grateful for the participants.
    Chairman Akin, thank you again for your time and for being 
with us. I look forward to seeing you tomorrow in Washington--
will not be long.
    Governor Perdue, thank you for being willing to give us an 
hour plus of your time out of your busy schedule to be with us 
in West Georgia, I know you understand how much we are 
suffering in this district with the loss of a lot of 
manufacturing jobs and we are going to try to work very hard to 
improve that situation.
    Mac, I thank you for being with us. It is a pleasure to 
share west Georgia with you in the Congress.
    With that, if there are no other questions--excuse me, 
Senator Lee.
    Senator Lee. I just wanted to say if I could that, as you 
understand, districts are spread hither and yonder. As we sit 
here today we sit in my Senate district. You have been to my 
home in LaGrange. The two do not really kind of go together 
except that I know a great deal about Newnan.
    I appreciate having these folks here, who I think of as our 
government in Georgia. You are here, Governor, Congressman 
Collins. Our fine visitor here from Missouri was saying 
something about senators, former senators, and I think you 
ought to know that he has two more here amongst us. He is out-
numbered greatly.
    I appreciate very much, Governor, as always, your 
leadership and Phil putting this together and having Mac 
Collins here.
    Thank you.
    Mr. Gingrey. Senator Lee, I appreciate it. And as the 
Governor's Floor Leader, as Mac Collins said, we ain't seen 
nothing yet. I know that under the leadership of the Governor 
and with your able assistance, that we are going to see some 
great things in the General Assembly this next year.
    In closing, let me just finally say----.
    Mr. Collins May I ask a question?
    Mr. Gingrey. Sure.
    Mr. Collins Susannah, you are manufacturing, I do not know 
what product, I am sorry.
    Ms. Dobbs. Thermoplastic pavement markings that are used 
for the yellow and white lines on the highway.
    Mr. Collins Okay. I visited the plant that you were at once 
before. Are you competing in a national market in any sort of 
way?
    Ms. Dobbs. Yes, we are. We compete in--really there is a 
U.S. market that we compete in, but yeah, we are having to 
compete against companies in Texas, Atlanta, west coast.
    Mr. Collins There is one other measure that has been 
introduced in the Congress--and it was introduced by John 
Linder from Georgia, it is calling for a total restructure of 
the tax code. I know Phil is on the bill, I am on the bill and 
I have encouraged the Ways and Means Committee Chairman to hold 
some hearings, it is called the Fair Tax, it is a national 
retail sales tax. It would eliminate all of the federal income 
tax, corporate, individual as well as the payroll tax. The 
purpose of it is to make us more competitive in the world 
market because it would take the cost of all the taxation out 
of the production of goods and services, retail sales tax would 
not be included in anything that was sold offshore or sold 
wholesale.
    It also serves another purpose too, and that is it would 
add back a tax where we would just about eliminate all of our 
tariffs on products coming into this country. And by adding 
that tax back, it makes it more in line with the cost of 
production here.
    So it is a very good measure and one that I hope we can get 
a lot of people behind in Washington. I do not know if Todd is 
on that bill or not, but I am soliciting his support of it 
right now.
    [Laughter.]
    Mr. Collins It is a good measure, it is a way to look at 
the future as to how we can compete in the world market. I am 
not one to give up on the world market. I think we can compete, 
it is just going to take some thinking, you know, from those of 
us who have been competing all our lives, as to how you do 
that.
    I was just over in Thailand last week, and I will not bore 
you all with a long story, but we were meeting with the prime 
minister of Thailand and he was talking about a bilateral--
wants a free trade agreement with the United States. I told 
him, well, we are not so much interested in free trade any 
more, we want fair trade. We want to exchange--not just 
continue to exchange our money for their goods, but we want to 
be able to sell them some goods. But it is kind of difficult to 
sell to a country that does not have a great deal of 
prosperity. It is hard for them to buy our product.
    In the meantime, he was talking about Burma, which is a 
country next to Thailand that has a severe problem. Their 
biggest industry over there is heroin that they are smuggling 
into Thailand and the Thais do not want it, they are trying to 
stop them. And he kept talking about a road map, we have a road 
map. If the Burmese will just listen to us, we have a road map 
for them that will take them into prosperity, and of course, I 
did not respond to anything like that at the time.
    But when we got up, he gave us a little gift, he gave us a 
necktie and as he was handing me the tie, I said, sir, can I 
ask you a question and he said sure. I did not want to 
embarrass him in front of the whole group because I knew the 
answer. I said does your road map for Burma include a free 
trade agreement. Oh, no, no, no, no. They could not buy 
anything we make in Thailand, they do not have any money. I 
said well, I rest my case. It hurts when it comes home, does it 
not? Because if you look at it in an equivalent way, that is 
the way we are competing in America with people like Thailand, 
Vietnam and other countries who have very low cost compared to 
what we do here, and they are just eating our lunch based on 
that cost, but we cannot beat them on the cost of labor. But 
there are other ways that we can beat them.
    And that is the reason I go back to this national sales tax 
that John Linder is promoting and go back to the regulatory 
costs that we put on all businesses in this country. Health 
care costs is one of them that we put on business, and a lot of 
the things at the state and federal level we force businesses 
to participate in turn out to be very, very costly.
    So there are ways that we can, if we can just get enough 
people in Washington to understand that, that we can compete in 
foreign markets.
    Mr. Gingrey. Mac, thank you very much.
    And finally, let me thank Mayor Keith Brady, the Mayor of 
Newnan, and Danny Lewis, City Manager, for giving us the 
opportunity and hosting us today.
    And with that, I declare this roundtable adjourned.
    [Whereupon, at approximately 6:15 p.m, the roundtable was 
adjourned.]



</pre></body></html>
